No. 20-7291

9a the Supreme Count of, the United Stater

JOHN HARRIS, PETITIONER,
v.
STATE OF ILLINOIS, RESPONDENT.

On Petition for a Writ of Certiorari
to the Illinois Appellate Court

CERTIFICATE OF FILING AND SERVICE

The undersigned, a member of the Bar of this Court, certifies that in
compliance with Rules 15.3, 29.3, and 33.2, and this Court’s April 15, 2020 order,
she electronically filed respondent’s Brief in Opposition and mailed one paper
copy to the Clerk, Supreme Court of the United States, Washington, DC 20543 on
May 19, 2021. In addition, counsel served the same, by agreement, on the following

party via electronic mail:

Ellen Jenkins Curry

Office of the State Appellate Defender
909 Water Tower Circle

Mt. Vernon, Illinois 62864
ellen.curry@osad.state.il.us

All parties required to be served have been served.

   

Counsel for Respondent

 
